March 31, 2003

KEITH STRANGE VICE PRESIDENT, SUPPLY MANAGEMENT

DAVID L. SOLOMON VICE PRESIDENT, NEW YORK METRO AREA
OPERATIONS

SUBJECT:     Audit Report – New York Metro Area Trailer Acquisition –
             Lease versus Buy (Report Number TD-AR-03-009)

This report presents results from our New York Metro Area Trailer Acquisition
audit (Project Number 02YG019TD002).

                                     Background

In September 2000, Postal Service Headquarters signed a National Trailer Lease to
acquire 4,475 trailers nationwide. The lease term plus renewal option was 12 years.
In March 2002, Postal Service New York Metro Area officials requested 1,500
trailers




               Tractor trailer departing from a New York Metro Area facility.

under Phase II of the National Trailer Lease. The lease term plus renewal option
was again 12 years. The anticipated cost exceeded $40 million. On March 27, 2002,
the Office of Inspector General (OIG) received a congressional request asking the
OIG to
determine if the requested New York acquisition was in the best interests of the
Postal Service. This report is one in a series of reports. Its purpose is to notify
Postal Service officials of our conclusions regarding lease versus buy
alternatives, the requirements to develop a Decision Analysis Report, and obtain
Board of Governors approval.

                            Prior Report Coverage

Our report, Trailer Lease Justification (Report Number TD-AR-02-002, dated
March 29, 2002), analyzed the National Trailer Lease and concluded the Postal
Service could achieve significant monetary savings by purchasing the 4,475
trailers instead of leasing them. The report also concluded Postal Service
management entered into the National Trailer Lease without properly evaluating
the decision in accordance with procedures required by Postal Service
investment policy–and without obtaining required approval from the Postal
Service Board of Governors. We recommended management prepare a
Decision Analysis Report and submit it to the Governors for approval.
Management disagreed. We considered our recommendations significant and
pursued the matter through formal audit resolution. On July 22, 2002, the deputy
postmaster general directed management to analyze the National Trailer Lease
in accordance with the procedures specified by Postal Service investment policy,
and stated that Postal Service Finance would independently verify the analysis in
accordance with the same procedures they use for capital projects. For other
related prior report coverage see Appendix A.

                    Objective, Scope, and Methodology

The objective of the audit was to determine whether the proposed acquisition of
1,500 trailers for the New York Metro Area would provide operational or financial
benefit to the Postal Service.

During our work, we interviewed Postal Service officials at headquarters, visited
Postal Service facilities in the New York Metro Area, interviewed area and local
officials, and observed and photographed operations. We examined Postal Service
acquisition policies and procedures, National Trailer Lease contract provisions, and
the proposed New York Metro Area trailer acquisition request. We also conducted
an economic analysis of the requested acquisition using discounted cash flow
methods to evaluate lease versus buy financing alternatives. Details of our
economic analysis methodology are contained in Appendices B and C.

Work associated with this report was conducted from April 2002 through March
2003 in accordance with generally accepted government auditing standards and
included such tests of internal controls as were considered necessary under the
circumstances. We discussed our findings with appropriate management
officials, and included their comments, where appropriate.




                                          2
                                        Results

Lease versus Buy

Our audit of the New York Metro Area trailer acquisition request concluded the
Postal Service could save $4 million over the 12-year lease term, including renewal
option, by purchasing the 1,500 trailers instead of leasing them. The New York Metro
Area requested headquarters lease the trailers instead of buying them because they
did not follow Postal Service investment policy or specified analytical procedures.
Consequently they did not adequately consider the acquisition alternatives. Postal
Service Handbook F-66, General Investment Policies and Procedures, dated
February 2002, requires all equipment acquisition exceeding $10 million to be:

.      • Supported by a Decision Analysis Report developed in accordance with
         specified analytical procedures–including lease versus buy analysis.
.      • Reviewed and approved by the Postal Service Board of Governors.

The New York request stated that it was a planned phase of the National Trailer
Lease. Postal Service policy requires related acquisitions be presented as a single
plan, and stipulates that related acquisitions may not be split to circumvent required
policies or approval levels. Nonetheless, whether the New York request is a “stand
alone” transaction, or part of the larger National Trailer Lease, investment policy still
requires a Decision Analysis Report and Governors’ approval.

Decision Analysis Report -Because Postal Service officials did not prepare a
Decision Analysis Report in compliance with required analytical procedures, officials
did not adequately consider financing alternatives. Handbook F-66 explains that the
“investment decision” to acquire equipment is separate and distinct from the
subsequent “financing decision” to lease or to buy. The policy states that “whenever
leasing is presented as the preferred method of acquiring equipment,” the Decision
Analysis Report must include a lease versus buy analysis. The handbook also
specifies that the analysis must adhere to rigorous quantitative and economic
procedures, including sensitivity analysis and discounted cash flow methods. As
indicated below, our analysis revealed the Postal Service could save more than $4
million by purchasing, rather than leasing, the trailers New York requested. For more
detailed information, see Appendices B and C.




                                            3
                               LEASE VERSUS BUY ANALYSIS

                                                                  LEASE       BUY
                                                                (millions)   (millions)

PURCHASE COST                                                                $32.7

                       DISCOUNTED CASH FLOW OF LEASE PAYMENTS    $41.7
               INCLUDING THE COST OF PREVENTATIVE
                 MAINTENANCE PROVIDED BY THE LEASE CONTRACTOR

              DISCOUNTED CASH FLOW OF SEPARATELY                             $5.8
                  CONTRACTED PREVENTATIVE MAINTENANCE SERVICE
                                                                             ($0.8)
TRAILER SALVAGE VALUE AT THE END OF USEFUL ECONOMIC LIFE


TOTAL                                                            $41.7       $37.7

SAVINGS                                                                      $4.0


Decision Approval -Handbook F-66 states that Board of Governors’ approval is
required when discounted lease costs, including all renewal options, is $10 million. It
further requires Board of Governors notification whenever undiscounted costs
exceed $10 million. We calculated lease discounted costs at $41.7 million, or more
than 4 times the Governors’ threshold, and undiscounted costs as $62.6 million, or
more than 6 times the Governors’ threshold. Because a Decision Analysis Report
was not presented to the Board of Governors for approval as required, the
Governors were not provided an opportunity to review and approve a 12-year, $40
million investment–or consider whether viable financing alternatives existed.


Recommendations

We recommend the vice president, Supply Management:

1.     1. Prepare a Decision Analysis Report in accordance with Postal Service
investment policy to support acquisition of trailers for the New York Metro Area.
2.     2. Submit the Decision Analysis Report to the Board of Governors for
approval.

Management’s Comments

Management disagreed with all of our findings and recommendations. However:

   •      They acknowledged the New York trailer acquisition was part of the
          National Trailer Lease.




                                               4
.       •      Stipulated that issues raised in this report were the same as issues
raised in our National Trailer Lease audit (Trailer Lease Justification, Report Number
TD-AR-02-002, dated March 29, 2002).
.       •      Reiterated their nonoccurrence with national report findings and
recommendations.

.      •        Used the same rationale to nonconcur with this report, reiterated their
position that the National Trailer Lease was not a lease, but a service, and
consequently, exempt from Postal Service leasing policy.
.      •        Stated they were changing Postal Service policy to clarify what
constituted supplies and services.
.      •        Acknowledged their nonconcurrence with our national report was in
formal audit resolution.
.      •        Conceded that as part of the resolution, they were completing
additional analysis, and promised that when their additional analysis was complete,
they would share the results with the OIG.

Management did not support their nonconcurrence with an analysis performed in
accordance with analytical standards specified by Postal Service policy.
Management’s comments, in their entirety, are included in Appendix D of this report.

Evaluation of Management’s Comments

Management’s comments are not responsive to our recommendations. We view
the disagreement on these recommendations as unresolved, and plan to pursue
the recommendations through the formal audit resolution process.

During resolution associated with our national report, the deputy postmaster
general instructed Postal Service Operations to analyze the trailer leasing plan in a
manner comparable to a Decision Analysis Report, and instructed Finance to
independently verify the analysis just as they would a capital project. We welcomed
that step and considered it responsive to our Decision Analysis Report
recommendation. We then explained that since we considered the
recommendation significant, when the analysis was prepared and verified, we
would review it as part of our standard process for closing significant
recommendations.

The deputy postmaster general also indicated management would proceed
immediately to modify Postal Service policy to clarify what constituted ongoing core
business supplies and services. We again welcomed that step and explained that
when the supplies and services policy modification was proposed, we would review it
as part of our standard process for reviewing and commenting on proposed policy
revisions.




                                           5
However with regard to our recommendation concerning the Governors’ approval,
we pointed out that in the context of the National Trailer Lease, we did not consider
trailers to be a supply or a service. We considered trailers to be equipment acquired
principally for the purpose of transporting mail—a core Postal Service function—and
consequently, felt existing Postal Service policy concerning leases applied. We also
explained that in any case, financial commitments like the National Trailer Lease
merited the Governors’ attention. The anticipated cost of National Trailer Lease
excluding the New York acquisition, exceeded $250 million. The anticipated cost of
the New York acquisition exceeded $40 million. Consequently, the total cost of the
trailer acquisition plan is almost $300 million.

This report is one in a series of reports. Other reports have repeatedly identified
shortcomings in the analysis of the trailer acquisition. For example, we pointed out
that management did not properly analyze operations for which trailers were
required; link trailer sizes to differing operating conditions like load density or
maneuverability; properly evaluate alternative financing strategies like leasing or
buying; or consider the actual useful life of trailers instead of their depreciable life for
accounting purposes. Considerations of this type are all required by Postal Service
analytical policy when they impact decision making. Specifically, policy stipulates
that analysis must be documented in sufficient detail to enable approving officials to
make informed decisions. In response to our findings and recommendations,
management routinely agreed to perform such analyses, and to provide results for
our independent review.

Management acknowledged that the New York acquisition was a planned phase of
the National Trailer Lease and Postal Service policy requires related acquisitions be
presented as a single plan. Consequently, the analysis directed by the deputy
postmaster general during National Trailer Lease resolution should include the New
York acquisition and an analysis supporting the entire 12 year $300 million
commitment of Postal Service funds.

Management pointed out that the issues raised during the New York audit, were
substantially the same as the issues raised during the national audit. We concur.
Accordingly, we will join our resolution effort concerning New York, with our efforts
concerning the national acquisition, and defer further decision on how to proceed
with resolution until we have had an opportunity to review the validated analysis
directed by the deputy postmaster general last year, on July 22, 2002.

The OIG considers recommendations 1 and 2 significant and, therefore,
requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until
the OIG provides written confirmation that the recommendations can be
closed.




                                             6
We appreciate the cooperation and courtesies provided by your staff during the
review. If you have any questions, or need additional information please contact Joe
Oliva, director, Transportation and Delivery, at 703-248-2100, or me at (703) 248-
2300



B. Wayne Goleski
Assistant Inspector General for
 Core Operations

Attachment

cc: John M. Nolan Richard J. Strasser,
     Jr. John A. Rapp
      J. Dwight Young
     Hector M. Martinez
     Susan M. Duchek




                                         7
                      APPENDIX A. PRIOR REPORT COVERAGE
Our report, Safety and Security of the Postal Service Leased Trailer Fleet (Report
Number TR-AR-01-002, dated March 30, 2001), involved a statistical sample,
randomly selected from a universe of 74 contracts and 8,715 trailers, inspected at 28
locations nationwide. We projected that 25 percent–or almost 2,200 of the 8,715
trailers–did not meet minimum federal safety standards, including such deficiencies
as bald tires, damaged or missing lights, reflectors, mud flaps, doors, load restraint
systems, and bumpers. We also found that 1,515 trailers–or more than 68 percent
of the trailers we projected as failing safety standards–did not have current safety
inspections. In addition, many had missing or incomplete inspection, repair, and
maintenance records. We made three recommendations to management to address
the safety issues we identified in our report. Management agreed with all of our
recommendations.

Our report, Leased Trailer Deficiencies in the New York Metro Area (Report Number
TR-MA-01-001, dated March 30, 2001), identified deficiencies we noted while visiting
the New York Metro Area to inspect the statistically selected trailers included in the
national audit referenced above. The trailers we observed were not within our




randomly selected statistical sample. However, because the trailers appeared to
be old and in substandard condition, we conducted a limited inquiry. Government
auditing standards require that auditors report, in writing, all significant instances
of noncompliance found in conjunction with an audit. In addition, it is the OIG’s
practice to immediately advise management of significant deficiencies we
observe, particularly if they involve health or safety issues. In response to our


                                          8
inquiry, the contractor was unable to provide maintenance history files or safety
compliance records as required by the contract. Our report recommended
management require the contractor to meet contract provisions regarding safety,
maintenance, and appearance; and that if the provisions were not met, consider
contract cancellation. Management agreed with all of our recommendations.

Our report, New York Metro Area Trailer Acquisition Requirements (Report Number
TD-MA-02-003, dated July 10, 2002), concluded the New York Metro Area purchase
request for trailers, submitted as Phase II of the National Trailer Lease, did not
properly analyze the requested acquisition. We recommended the New York Metro
Area analyze the acquisition in accordance with Postal Service investment policy,
and headquarters not approve the request until proper analysis and supporting
documentation were submitted and reviewed. Management agreed with our
recommendations.

Our report, New York Metro Area Trailer Acquisition – Safety and Length (Report
Number TD-AR-03-001, dated October 28, 2002), addressed the age, maintenance,
and safety of the old 40-foot trailers the New York Metro Area wanted to replace with
the newer and longer trailers they requested. Our report concluded the old trailers
were not maintained in accordance with federal or contract safety standards, and
many trailers should have been taken out of service. Our report also concluded that
Postal Service management did not properly analyze the requirement for longer
trailers and that there was a need for some 40-foot trailers in constrained urban
areas. We recommended the New York Metro Area enforce compliance with federal
and contract safety standards and properly analyze the requirement for trailers of
varying length before submitting their acquisition request to Postal Service
Headquarters. Management agreed with our recommendations.




The shredded tire cap on this leased trailer       Leased 40-foot and 45-foot trailers parked at
is an out of service deficiency.                   the James A. Farley building in Manhattan.



                                               9
Our report, New York Metro Area – Operational Use of Trailers (Report Number TD-
MA-03-001, dated January 29, 2003), concluded that the Postal Service could save
$4.4 million over a 2-year period by reducing the size of the New York Metro Area
trailer fleet by 700 trailers and developing cheaper alternatives for equipment
storage. The report concluded the New York Metro Area leased too many trailers
because they did not properly analyze transportation or storage requirements or
alternatives. For example, the report pointed out that New York continued to lease
trailers for storage while at the same time, selling old trailers they already owned for
$500 each. We recommended the New York Metro Area properly analyze




Leased trailers parked at the New Jersey International Bulk Mail Center used for storing mail
                                        transport equipment.
equipment storage requirements, explore alternative methods for storing equipment,
and analyze trailer requirements based on transportation needs. Management
agreed with our recommendations.




                                              10
                                   APPENDIX B

    LEASE VERSUS BUY ANALYSIS - NEW YORK METRO AREA
                  TRAILER ACQUISITION

To evaluate the lease versus buy financing alternatives of the New York Metro Area
trailer acquisition, we compared the net present value of the lease versus buy
financing alternatives considered over a 12-year period. The 12 years represented
both:

.      •      The 6-year lease period plus the 6-year renewal option specified by
Postal Service investment policy.
.      •      Trailer depreciable life for accounting purposes.

Lease – To establish the net present value of the lease payments, we considered
expected annual contracted lease costs during the initial 6-year lease term, and
then escalated those costs for inflation by the 1 percent inflation factor published by
Postal Service Headquarters Finance for analyses of this type. We then discounted
all costs by the 6.75 percent discount factor also published by headquarters
Finance.

Purchase – To establish the net present value of the purchase financing option, we
estimated the immediate cash outlay for 1,500 trailers by considering the last major
purchase of trailers by the Postal Service, and escalating that cost by inflation
factors published by headquarters Finance. We then considered annual costs for
trailers over their 12-year life. These costs included the cost of contracting out
preventive maintenance, including parts and labor, based on data collected during
our Trailer Lease Justification audit, (Report Number TD-AR-02-002, dated March
29, 2002. We also considered salvage value. As we did with the leasing analysis,
we used inflation and discount factors published by headquarters Finance.

A detailed cash flow analysis is presented in Appendix C.




                                           11
12
13
14
15
16
17
18
19
